22

IN THE SUPREME COURT OF THE UNITED STATES
No.
Lee Mulcahy, Petitioner,
V.

Aspen Skiing, Respondent.
CERTIFICATE OF SERVICE WITH RULE 29.5
I, Lee Mulcahy hereby certify under penalty of perjury
under the laws of the United States of America that the
foregoing is true and correct: I certify that a true and
accurate copy of this extension placed in the United
States mail, postage prepaid, and addressed to the
following parties on April 9, 2020:
Tierney Lawrence LLC,University of Colorado
“Adjunct Faculty” Ed Ramey, 225 E. 16th Avenue, Suite
350 Denver, CO 80203 (as well as e-mailed)
Date executed:

fy^y(cc{ h
/

Subscribed and sworn to before this 9th day of April,
2020.
I am duly authorized under the laws of the State of
Colorado to administer oaths.

oi

KELBY FARIAS
NOTARY PUBLIC
STATE OF COLORADO
NOTARY ID #20184045165
My
Expires November26,2022 f

Public

No.
In the Supreme Court of the United States
Lee Mulcahy
Petitioner,
V.
Aspen Ski Company
Respondent

AFFIDAVIT OF SERVICE

I, Lee Mulcahy, of lawful age, being duly sworn, upon my oath certify that on
February 3,2020 mailed a true and accurate copy of Petition for Certiorari to Prof. Ed
Ramey, JD, attorney for Skico (below) in the above case.

I certify that a true and

accurate copy of the Petition for Certiorari was placed in the United States mail, postage
prepaid, and addressed to the following parties on February 3,2020:

Prof. Ed Ramey, Esq.
Skico Attorney
Tierney Lawrence LLC
University of Colorado “Adjunct Faculty” Ed Ramey
225 E. 16th Avenue, Suite 350
Denver, CO 80203
eramey@tiemeylawrence. com
(720) 242-7585
(303) 949-7676 (cell)

Lit-e

ZF

/h^lcalu.

7

